SEC.gov |  Semiannual Report to Congress: October 1, 1998 to March 31, 1999
Search SEC Documents
Company Filings | More Search Options
Skip to Main Content
About
What We Do
Commissioners
Securities Laws
SEC Docket
Reports
Careers
Contact
Divisions
Corporation Finance
Enforcement
Investment Management
Economic and Risk Analysis
Trading and Markets
National Exam Program
All Divisions and Offices
Enforcement
Litigation Releases
Administrative Proceedings
Opinions and Adjudicatory Orders
Accounting and Auditing
Trading Suspensions
How Investigations Work
Administrative Law Judges
Regulation
Proposed Rules
Final Rules
Interim Final Temporary Rules
Other Orders and Notices
Self-Regulatory Organizations
Staff Interpretations
Education
Investor.gov
Check Out a Broker or Adviser
Investor Alerts and Bulletins
Fast Answers
File a Tip or Complaint
Publications
Filings
EDGAR Search Tools
Company Filings Search
How to Search EDGAR
Requesting Public Documents
Descriptions of Filing Types
Information for Filers
About EDGAR
News
Press Releases
Public Statements
Speeches
Testimony
Spotlight Topics
What's New
News Digest
Events
Webcasts
Special Studies
Semiannual Report to Congress: October 1, 1998 to March 31, 1999
Inspector General
About OIG Office of Audits Office of Investigations Semiannual Reports Testimony Other Publications References Links Relevant FOIA Documents Contact Us
This document is an HTML formatted version of a printed document.
The printed document may contain agency comments, charts, photographs,
appendices, footnotes and page numbers which may not be reproduced in this
electronic version.  If you require a printed version of this document
contact the United States Securities and Exchange Commission, Office of
Inspector General, Mail Stop 11-7, 450 Fifth Street N.W., Washington, D.C.
20549 or call (202) 942-4460.
Securities and Exchange Commission
Office of Inspector General
Semiannual Report to Congress
Executive Summary
During this reporting period (October 1,
1998 to March 31, 1999) the Office of Inspector General (Office) issued eight
audit reports and five audit memoranda. The audits focused on the enforcement
action memo process; international technical assistance; financial and
administrative controls in three regional offices; implementation of the
Government Performance and Results Act; year 2000 compliance efforts for
Commission systems and EDGAR; the part-time employment program; control of
computer equipment; contingency testing; password security; and electronic
filing of ownership reports. The Audit Program section below describes these
audits further.
The Commission is making substantial efforts
to ensure that its information systems are year 2000 compliant. The conversion
process entails significant risks and expenditures. We are monitoring the
conversion and making recommendations, as appropriate.
Information resources management (IRM)
continues to experience significant problems, which will complicate year 2000
efforts. Specifically, systems development contracting, IRM planning, and ADP
security remain problem areas. The Office of Information Technology has
reorganized and is increasing the use of out-sourcing to improve its
performance. The Commission has also established a senior level information
technology committee to monitor information technology investments.
Another previously reported significant
problem involves controls over the collection of fees. Although statutory
changes have eliminated many of the fees most at risk and the Commission has
made many improvements in controls over the collection of filings fees, the
overall control structure remains inadequate. This condition will remain until
a new fee system, which is currently in development, is implemented.
Audit Program
The Office issued eight audit
reports and five audit memoranda during the reporting period. The reports
contained a total of 70 recommendations, which are further described below.
Management generally concurred with the recommendations.
Enforcement
Action Memo Process Audit 276, March 18, 1999
We conducted an audit of the
Commission's Enforcement Action Memoranda Process. Action memoranda are the
primary formal communications from the Enforcement staff to the Commissioners
about investigations of alleged violations of securities laws. Commission
instructions, based on the information in action memoranda, provide the
Enforcement staff guidance concerning the case.
The objective of the audit
was to determine how well the staff and Commissioners communicate through this
process. The audit primarily consisted of 13 structured workshops, with
approximately 19% of the Enforcement staff participating, and interviews with non-Enforcement
staff involved in the process.
The workshop participants
indicated that, generally, the staff is successfully obtaining case specific
instructions from the Commission by providing it relevant information, although
some obstacles are impairing the Commission's ability to fully achieve this
objective.
Among the recommendations
suggested by the participants were: (1) enhanced communication of Commission
and Division information needs, policies, and procedures to the staff; (2)
improved capability to research related previous action memoranda; (3)
standardization of review procedures, especially those of interested offices
and divisions; and (4) additional training on the Enforcement action memoranda
process.
We recommended the
establishment of an Enforcement Task Force on the Action Memoranda process to
consider the participants' recommendations (and any the Task Force generates or
identifies from other sources) and implement those recommendations that have
merit. The Enforcement Division has already begun taking significant steps to
improve the action memoranda process and we commended it for its timely efforts.
GPRA Performance
Measures Audit 283, March 16, 1999
The Government Performance
and Results Act of 1993 requires agencies to define their mission and goals,
measure their performance toward those goals, and report to the Congress and
the public on their progress. Agencies must develop five-year strategic plans,
annual performance plans and annual performance reports. The fiscal year 1999 performance
plan is the first required and the first performance report is due by March 31,
2000. Performance plans and reports should include quantitative performance
measures, unless the agency obtains OMB approval for alternative measures.
The
Commission organized a GPRA Task Force, composed of senior staff from the
offices and divisions, to coordinate its efforts. The Chairman's Office, the
Office of the Executive Director, and the Office of the Comptroller share
overall responsibility for implementing GPRA requirements. These offices also
oversee the Commission's proposed budget. As a result of the Task Force's
efforts, the Commission has generally complied with GPRA requirements. It
issued a five-year strategic plan in September 1997 and annual performance
plans for 1999 and 2000.
Our
objective was to determine whether fiscal year 1997 performance measures in the
1999 performance plan materially agreed with supporting records. We wanted to
help ensure that reported data are adequately supported when the Commission
makes its first performance report. We selected a judgment sample of 16 of 27
output performance measures in the FY 1999 performance plan, and examined
supporting records, including computer print-outs and source documents. We did
not evaluate whether the measures themselves were appropriate.
We found
that the Commission can improve the support for performance measures in its
1999 performance plan. Half of the measures we reviewed (8 of 16) did not agree
with supporting records. Like other federal agencies, the Commission apparently
encountered difficulties in the definition, data collection, and reporting
phases of performance measurement. Besides recommendations to improve the
supporting records, we recommended additional GPRA training and guidance and
improved controls in the tracking systems generating the measures. Commission
offices and divisions have already taken several corrective actions in response
to our findings and recommendations.
International
Technical Assistance Audit 284, October 27, 1998
The Office of International
Affairs (OIA) coordinates Commission technical assistance (TA) to foreign
countries. TA helps foster relationships with foreign regulators and improves
the quality of securities regulation in foreign markets.
Technical assistance requests
are screened based on the nature and timing of the requests and the potential
demands on Commission resources. Each request is assigned to an OIA staff
member. Where necessary, input from other Commission offices and divisions is
obtained.
We reviewed the Commission's
process for providing TA. The primary audit objective was to determine the
efficiency and effectiveness of the process.
We reviewed a sample of TA
request files to verify compliance with OIA policies and procedures and to
assess controls over the requests. In addition, we reconciled TA expenditures
under a reimbursable agreement and sent a survey to 11 foreign regulators to
which the Commission provided TA. We also examined other documentation and
interviewed Commission and foreign officials.
Overall, we found that the
Commission's process for providing TA was operating efficiently and
effectively. Additionally, foreign officials generally complimented the
timeliness and professionalism of Commission staff.
We identified steps that
would enhance the efficiency and effectiveness of the process. Specifically, we
made recommendations to OIA regarding their organizational structure and use of
resources, foreign regulator suggestions, recording and tracking of requests,
fulfilling of requests, and evaluation forms and surveys.
Philadelphia
District Office Audit 286, December 29, 1998
The Philadelphia District
Office (PDO) assists the Northeast Regional Office in administering Commission
programs in the northeast portion of the country. In carrying out its
responsibilities, the PDO exercises a broad range of financial and
administrative functions, including maintaining time and attendance records;
procuring supplies and services; arranging for staff travel; maintaining an inventory
of property; and recording budgeted and actual expenditures of the office.
We reviewed the financial and
administrative controls of the Philadelphia District Office. The audit
procedures were limited to interviewing PDO staff, reviewing supporting documentation,
and conducting selected tests of transactions.
During the review, we made
recommendations involving two material issues. Commission guidance for
determining the appropriate size of imprest funds needs to be enhanced. To save
money, the PDO should order only enough transit subsidy checks to cover yearly
needs.
Otherwise, we found that the
PDO's controls were generally adequate, implemented economically and
efficiently, and in compliance with Commission policies and procedures.
Boston District
Office Audit 287, October 23, 1998
The Boston District Office
(BDO) also assists the Northeast Regional Office in administering Commission
programs in the northeastern portion of the United States. In carrying out its
responsibilities, the BDO exercises a broad range of financial and
administrative functions.
We reviewed the financial and
administrative controls of the BDO. The audit procedures were limited to
interviewing BDO staff, reviewing supporting documentation, and conducting
selected tests of transactions.
We identified material issues
relating to the ordering of court reporter services; maintenance of blotter
records; reimbursement of telephone calls; use of a property tracking system;
and use of the government credit card.
Otherwise, our limited review
indicated that the BDO's controls were adequate, implemented economically and
efficiently, and in compliance with Commission policies and procedures.
Southeast
Regional Office Audit 292, March 29, 1999
The Southeast Regional Office
(SERO) in Miami, Florida administers Commission programs in the southeastern
portion of the United States. In carrying out its responsibilities, the SERO
exercises a broad range of financial and administrative functions.
We reviewed the financial and
administrative controls of the SERO. The audit procedures were limited to
analyzing representations made by SERO staff, reviewing supporting
documentation, and conducting some tests of transactions.
During our limited audit, no
material weaknesses in the SERO's financial and administrative controls came to
our attention.
Year 2000
Compliance Efforts Audit 293, January 25, 1999
We continued to audit the
Commission's efforts in making its internal computer systems year 2000
compliant. This report covered the period from July 16 to September 30, 1998.
During the audit, we
interviewed staff, reviewed relevant documentation, and conducted a survey of
offices and divisions remediating PC systems. We also followed-up on
recommendations from our first year 2000 report (issued August 24, 1998).
We found that the Commission
has taken numerous steps to address the year 2000 issue. It has intensified
senior management involvement, enhanced project tracking mechanisms, identified
the highest priority systems for remediation, finalized the year 2000 project
management plan, and begun developing an independent verification and
validation test plan. In addition, it is implementing recommendations from our
prior report on year 2000 compliance.
We surveyed divisions and offices
remediating non-OIT systems. Generally, we found that these PC-based systems
are generally not at high risk.
Like many other federal
agencies, the Commission continues to have difficulties meeting year 2000
deadlines established by the Office of Management and Budget. One major reason
is long-standing weaknesses in the Office of Information Technology (OIT),
which is primarily responsible for year 2000 remediation on mainframe and
network systems. OIT has been restructured and is undertaking efforts to
address these weaknesses.
We made several
recommendations to improve the Commission's compliance efforts. These included
supporting the year 2000 project separately from OIT's reorganization;
consolidating documentation for business contingency planning; and enhancing
OIT's decision-making processes.
Edgar Year
2000 Status Report Audit 297, March 19, 1999
The Office of Inspector
General continued to audit the Commission's efforts in making EDGAR year 2000
compliant. This report covered our review of the period from June 16, 1998 to
February 9, 1999. It follows-up on Audit Memorandum No. 8, issued May 18, 1998,
and the Status Report on Year 2000 Compliance, issued August 24, 1998 (Audit
Nos. 274, 275, and 282). Our audit work consisted of interviews with Commission
and contractor staff and review of available documentation.
We found
that the Commission has made several decisions regarding EDGAR year 2000
compliance. It has decided to certify the existing EDGAR code, based on a code
review and the fact that the code was written to be year 2000 compliant. The
Commission plans to hire a contractor to oversee development and testing of the
modernized EDGAR code, and will allow filer testing in the summer of 1999.
We
recommended that the Office of Information Technology prepare a final EDGAR
test plan (with the concurrence of the Chairman and the Executive Director);
that the Commission strengthen EDGAR contract administration; and that the
Contracting Officer consider revising EDGAR contract provisions on year 2000
compliance.
Part-time
Employment Program Audit Memorandum 11, october 21, 1998
Under the Federal Employees
Part-Time Career Employment Act of 1978, agencies are required to establish by
regulation a program for part-time career employment. By memorandum dated July
11, 1994, the President directed agencies to establish a program to encourage
and support family-friendly work arrangements, including part-time employment.
The
Commission had not formally established a part-time employment program as
required, although a number of employees currently work part-time. Also, the
Office of Administrative and Personnel Management is planning to establish a
focus group to consider positions which may be suitable for part-time employment.
We
recommended that the Office of Administrative and Personnel Management
establish a part-time employment program that complies with regulatory and
statutory requirements, and the President's directive.
Control
of Computer Equipment Audit Memorandum 12, December 29, 1998
In October 1998, computer,
processing chips valued at $35,000 were reported missing and presumed stolen.
Further review located the missing chips. However, the incident highlighted
weaknesses in the controls over computer equipment.
We interviewed
staff and toured the areas used to store computer and other equipment.
Management
is not satisfied with current procedures for controlling computer equipment.
They also believe that communication and coordination between responsible
organizations could be improved. While regulations have been issued covering
computer equipment, the regulations are apparently not functioning as intended.
We recommended that the
offices involved address these issues through the Property Task Force that the
Office of the Executive Director recently convened.
Contingency
Testing Audit Memorandum No. 14, March 15, 1999
Contingency testing of
Commission information systems should be performed on a systematic, ongoing
basis. As the Office of Management and Budget stated in Circular A-130:
Experience
has demonstrated that testing a contingency plan significantly improves its
viability. Indeed, untested plans or plans not tested for a long period of time
may create a false sense of ability to recover in a timely manner.
The Commission has not
performed a contingency test of its mainframe computers since August 1996.
Since that time, the water  cooled
mainframes have been replaced by smaller air cooled models.
According
to the Office of Information Technology (OIT), the EDGAR system was last tested
in January 1998. When we requested documentation of the test plans, results,
and analysis, only the contractor had it. OIT has since obtained the
documentation for its files.
The local area and data
communication networks have not been tested since November 1994. Meanwhile, the
Office of Information Technology has been undergoing a reorganization, with
significant personnel changes.
OIT has
drafted guidance on contingency testing. We recommended that the guidance be
finalized, and that OIT periodically test Commission contingency plans.
Password
Security Audit Memorandum No. 15, March 15, 1999
This audit memorandum
described an access control weakness in the Federal Financial System (FFS), the
Commission's primary accounting system. The Office of Inspector General
identified the weakness when its staff sought access to FFS for entering travel
authorizations. No unauthorized access or loss was attributed to the weakness.
The
security risk has been mitigated by the Comptroller's Office, based on our
recommendation. In addition, the Office of Information Technology indicated
that it expanded its draft technical bulletin covering passwords.
Electronic
Filing of Ownership Reports Audit Memorandum No. 16, March 31, 1999
The EDGAR rules allow, but do
not require, electronic filing of ownership reports on Forms 3, 4, and 5, and
notices of proposed sales of restricted securities on Form 144. Currently, many
of these reports and notices are being filed on paper, rather than electronically.
The Commission has generally
mandated electronic filing to improve disclosure to the investing community,
except when overriding considerations are present. Purchases and sales of company
stock by insiders are of keen interest to the investing community.
Accordingly, we recommended
mandatory electronic filing of these forms after EDGAR modifications are
completed to implement a new format for electronic filings. Officials from the
Division of Corporation Finance and the Office of Filings and Information
Services agreed with our recommendation.
Investigative Program
Ten investigations were
closed during the period. Four cases were referred to the Commission; one was also
referred to the Department of Justice (which declined prosecution). Eight
referrals to Commission management remain pending.
At the close of the period,
five investigations were pending. The pending investigations included
allegations of violation of computer security rules, a prohibited personnel
practice, misrepresentation, bribery, and theft of Commission property. The
most significant cases closed during the period are described below.
Investigative
Abuse
We investigated allegations
that Commission Enforcement staff brought legal action in bad faith for
discriminatory reasons. In addition, the complainant alleged that a guilty
party was not charged and that the Commission improperly used this party to
testify against the complainant. The evidence developed in our investigation
failed to substantiate any of the allegations against Commission staff.
Unlawful
Recording
An investigation developed
evidence that a Commission staff member secretly tape-recorded a conversation
with a supervisor, in violation of a state statute. We referred the matter to
the District Attorney and Commission management. The District Attorney declined
prosecution. Administrative action by Commission management is under
consideration.
Bribery
At our request, the Office of
Inspector General of another Federal agency conducted an investigation of a
senior Commission official. Allegations were received that the Commission
official accepted a bribe to influence decisions concerning a securities
investigation. The evidence developed in that Office of Inspector General's
investigation failed to substantiate the allegations.
Retaliation
We investigated allegations
that a senior Commission manager retaliated against an employee who furnished
information to our Office. The complainant was not selected for a promotion.
Evidence developed in our investigation failed to substantiate the allegation
that the non-selection was retaliatory.
Unauthorized
Disclosure
We developed evidence that a
Commission employee disseminated non-public information to a former employee.
Commission management is considering administrative action against the current
employee.
Conflict
of interest
We investigated allegations
that a senior Commission official participated personally and substantially in
a matter in which the official had a financial interest. Our investigation
developed evidence that the official lacked actual knowledge of the financial
interest at the time the official participated in the matter.
Significant Problems
No new significant problems
were identified, based on work completed during the period.
Significant Problems Identified Previously
Year 2000
During the reporting period,
we continued to audit the Commission's efforts to make its systems year 2000
compliant (see above, audits 293 and 297). The scope of the audits includes
EDGAR and Commission internal systems.
Year 2000 conversion will
require significant resources and pose material risks for the Commission. The
Commission is making substantial efforts to address the problem. However, these
efforts are complicated by operational problems in the Office of Information
Technology (described below). We intend to monitor the entire conversion
process and are sharing our findings and recommendations with OIT as they are
developed.
Information
Resources Management
Information resources
management remains a significant concern, particularly the areas of contracting
for systems development, information resources planning, and ADP security. SEC
management is, however, undertaking efforts to strengthen these areas.
Management has established a senior level information technology committee to
oversee information technology investments, begun to outsource much of the more
routine operational information technology activities, and recently completed a
restructuring of its Office of Information Technology. The restructured
organization has begun to focus on core agency activities such as technical
architecture, strategic planning, project management, security, and customer
support.
Significant
improvements have already been made in the ADP security area. Management has
issued an agency-wide information technology security policy; provided training
to SEC staff and contractors on security issues; instituted a security review
program to regularly assess the agency's security posture and monitor the
results of those assessments; and developed an internal security website that
contains security alerts, technical bulletins, and approved software patches
that eliminate identified vulnerabilities.
Collection
of Filing Fees
A prior audit of the
collection of filing fees confirmed the Commission's previous assessment that
the management controls were not in material conformance with accounting
standards. Although statutory changes have eliminated many of the fees most at
risk and Commission management has made significant progress in correcting the
most serious weaknesses, some corrective actions must await the implementation
of a new computerized collection system.
The fee system is being
redesigned and implemented under the EDGAR modernization contract. A working
group of managers and users is working with the contractors and developers to
ensure that the new fee system contains adequate financial controls and meets
the agency's and filers' requirements. Until these corrective actions are fully
implemented, the overall control structure will continue to fail to provide
assurance that accountability over filing fees is adequate.
Access to Information
The Office of Inspector
General has received access to all information required to carry out its
activities. No reports to the Chairman, concerning refusal of such information,
were made during the period.
Other Matters
Executive
Council on Integrity and Efficiency
The Office actively
participates in the activities of the Executive Council on Integrity and
Efficiency (ECIE). The Inspector General attends ECIE meetings, is an active
member of its Financial Institutions Regulatory Committee, and serves as the
ECIE representative to, and member of, the Integrity Committee of the
President's Council on Integrity and Efficiency (PCIE).
The Counsel and Associate
Counsel to the Inspector General are active members of the PCIE Council of
Counsels. The Council considers legal issues relevant to the Inspector General
community.
Questioned Costs
Dollar Value(in thousands)
UnsupportedNumber  Costs
QuestionedCosts
A
For which no management
decision has been made by the commencement of the reporting period
0
0
0
B
Which were issued during
the reporting period
0
0
0
Subtotals (A+B)
0
0
0
C
For which a management
decision was made during the reporting period
0
0
0
(i)
Dollar value of disallowed
costs
0
0
0
(ii)
Dollar value of costs not
disallowed
0
0
0
D
For which no management
decision has been made by the end of the period
0
0
0
Reports for which no
management decision was made within six months of issuance
0
0
0
Recommendations That
Funds Be Put To Better Use
Dollar Value
Number(in thousands)
A
For which no management
decision has been made by the commencement of the reporting period
0
0
B
Which were issued during the
reporting period
0
0
Subtotals (A+B)
0
0
C
For which a management
decision was made during the period
0
0
(i)
Dollar value of
recommendations that were agreed to by management
0
0
-
Based on proposed
management action
0
0
-
Based on proposed
legislative action
0
0
(ii)
Dollar value of
recommendations that were not agreed to by management
0
0
D
For which no management decision
has been made by the end of the reporting period
0
0
Reports for which no
management decision was made within six months of issuance
0
0
Reports with No Management Decisions
Management
decisions have been made on all audit reports issued before the commencement of
this reporting period (October 1, 1998).
Revised Management Decisions
No
management decisions were revised during the period.
Agreement with Significant Management
Decisions
The
Office of Inspector General agrees with all significant management decisions
regarding audit recommendations, including "Funds put to Better Use"
and "Questioned Costs."
http://www.sec.gov/about/oig/audit/semi9904.htm
Site Map
Accessibility
Contracts
Privacy
Inspector General
Agency Financial Report
Budget & Performance
Careers
Contact
FOIA
No FEAR Act & EEO Data
Whistleblower Protection
Open Government
Plain Writing
Links
Investor.gov
USA.gov
U.S. Securities and Exchange Commission
ABOUT
DIVISIONS
ENFORCEMENT
REGULATION
EDUCATION
FILINGS
NEWSROOM
Inspector General
About OIG
Office of Audits
Office of Investigations
Semiannual Reports
Testimony
Other Publications
References Links
Relevant FOIA Documents
Contact Us